OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/GUATEMALA’S
DEMOCRACY AND
GOVERNANCE PROGRAM
AUDIT REPORT NO. 1-520-10-001-P
OCTOBER 30, 2009




SAN SALVADOR, EL SALVADOR
Office of Inspector General


October 30, 2009

MEMORANDUM

TO:              USAID/Guatemala Director, Wayne R. Nilsestuen

FROM:            Regional Inspector General/San Salvador, Catherine Trujillo /s/

SUBJECT:         Audit of USAID/Guatemala’s Democracy and Governance Program
                 (Report No. 1-520-10-001-P)

This memorandum transmits our final report on the subject audit. We have carefully
considered your comments on the draft report in finalizing the audit report and have
included your response in appendix II of the report.

The report contains eight recommendations intended to improve the effectiveness and
implementation of the democracy and governance program administered by
USAID/Guatemala. Final action has been taken on recommendation nos. 1–3, while a
management decision has been reached on the remaining recommendations nos. 4–8.
Determination of final action will be made by the Audit Performance and Compliance
Division upon completion of the planned corrective actions.

I want to express my appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel (503) 2501-2999 - Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ................................................................................................................ 6

Audit Findings ................................................................................................................. 7

Did USAID/Guatemala’s democracy and governance program achieve
planned results and what has been the impact?

          Program Impact Can Be Enhanced..................................................................... 12

          Partners Should Assess the Effectiveness of Training........................................ 15

          Leverage Contributions for the Youth Alliance Program Were Overstated ......... 17

Did USAID/Guatemala’s reporting on its democracy and governance program
provide stakeholders with complete and accurate information on the progress of
the activities and the results achieved?

          Data Reporting Needs to Be Strengthened......................................................... 19

          Performance Management Plan Needs to Be Improved..................................... 21

Appendix I – Scope and Methodology ........................................................................ 23

Appendix II – Management Comments ....................................................................... 24

Appendix III – Performance Management Plan Indicators and Results................... 30

Appendix IV – Planned and Reported Results for
Youth Alliance Program (Unaudited) .......................................................................... 33

Appendix V – Planned and Reported Results for
Youth Challenge Program (Unaudited) ....................................................................... 34

Appendix VI – Planned and Reported Results for the
Rule of Law Program (Unaudited) ............................................................................... 35

Appendix VII – Planned and Reported Results for the
Community-Based Policing Program (Unaudited)..................................................... 37

Appendix VIII – Planned and Reported Results for the Decentralization
and Local Governance Program (Unaudited)............................................................. 38
Appendix IX – Planned and Reported Results for the Anticorruption,
Transparency, and Accountability Program (Unaudited).......................................... 41
SUMMARY OF RESULTS
USAID/Guatemala’s democracy and governance program focuses on strengthening the
rule of law and greater transparency and accountability in government (page 3). The
program began in September 2004 and is scheduled to end in September 2009, and the
total estimated USAID budget for the program is $36.7 million. As of September 30,
2008, USAID/Guatemala had obligated $36.1 million and expended $23.8 million under
the program (page 4). The program is implemented through 12 contracts and
agreements that are described on pages 3 and 4.

As part of its fiscal year 2009 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions (page 6):

•   Did USAID/Guatemala’s democracy and governance program achieve planned
    results and what has been the impact?

•   Did USAID/Guatemala’s reporting on its democracy and governance program
    provide stakeholders with complete and accurate information on the progress of the
    activities and the results achieved?

With respect to the first question, it was difficult to assess the overall results or impact of
the program because USAID/Guatemala had not prepared a complete program
management plan including performance measures and program targets. Judging by
the available information, however, USAID/Guatemala’s democracy and governance
activities had achieved some important results, notably the following:

•   Establishment of four model 24-hour courts in which police, public defenders,
    prosecutors, and judges are co-located to improve efficiency in processing criminal
    cases.

•   Improvement of administrative processes in 13 targeted municipalities, including
    making these processes more transparent.

•   Demonstration of approaches for helping to rehabilitate former gang members and
    helping prevent vulnerable youth from joining gangs.

•   Expansion of voting locations into rural areas, helping to increase voter participation
    in the 2008 presidential elections.

•   Passage of a law providing for public access to government information.

However, most of the activities financed by USAID/Guatemala have not achieved
sufficient scale to significantly influence national democracy and governance trends,
many of which are negative (page 7). A renewed focus on achieving transformational
change is needed (page 12), and better followup to measure training effectiveness is
also needed (page 15). Finally, leverage contributions to the Youth Alliance Program
were overstated by about $600,000 (page 17).

With respect to the second question, USAID/Guatemala’s reporting on its democracy


                                                                                             1
and governance program provided stakeholders with complete and accurate information
for 16 of 30 items tested, but the mission reported inaccurate results for 14 of 30 items
tested (page 19). In addition, USAID/Guatemala has not established performance
targets for some of the performance management plan (PMP) performance indicators,
and the PMP had not been updated since 2006 (page 21).

The report recommends that USAID/Guatemala:

•   Focus the follow-on program on implementing reforms at a sufficient scale to achieve
    transformational impact (page 13).

•   Include support for civil society advocacy efforts in its follow-on program or arrange
    for such support in coordination with other donors (page 14).

•   Condition further efforts to train Government of Guatemala employees on progress
    toward civil service reform (page 14).

•   Establish procedures for systematically following up with training participants to
    assess the impact and effectiveness of training (page 16).

•   Determine the eligibility of $36,238 in unsupported leverage contributions and
    $598,188 in ineligible contributions under the Youth Alliance Program and, as
    appropriate, obtain additional contributions (page 18).

•   Verify that Creative Associates has implemented a satisfactory system for valuing
    volunteer work under the Youth Challenge program (page 18).

•   Develop and implement a system to reasonably ensure that reported information is
    accurate (page 20).

•   Develop a performance management plan for its follow-on democracy and
    governance program that meets USAID policy requirements (page 21).

USAID/Guatemala agreed with each of the recommendations. Based on a review of the
mission’s response and followup meetings with mission personnel, final action has been
taken on recommendation nos. 1–3 and management decisions were reached on
recommendations 4–8. Evaluations of management comments follow each of the
recommendation sections. USAID/Guatemala’s comments are included in their entirety in
appendix II.




                                                                                        2
BACKGROUND
USAID’s Office of Democracy and Governance has published an assessment
methodology organized around five key elements of democracy: consensus, rule of law,
competition, inclusion, and good governance. 1 These five elements provide a useful
framework for highlighting some of the issues discussed in the 2003 strategy for
USAID/Guatemala’s democracy and governance program as well as recent
developments that have influenced the program’s results and its impact:

•    Consensus – Consensus refers to agreement on basic political arrangements:
     boundaries between the state and the rest of society, rules of political competition,
     and so on. Analytical work in support of the 2003 strategy noted that formal “rules of
     the game”—the Guatemala’s Constitution of 1985 and electoral rules, for example—
     enjoy considerable legitimacy. However, formal rules coexist with a willingness by
     important political actors to consider extraconstitutional solutions to political conflicts.
     Criminal organizations—sometimes referred to as “parallel powers”—and
     narcotraffickers resort to threats, intimidation, and bribes to advance their agendas.

•    Rule of Law – The 2003 strategy stated that “A functioning rule of law is not present
     to constrain the primary drivers of conflict in Guatemala: crime, local land conflicts,
     ethnic discrimination, and a lack of access to employment and resources.” While it is
     difficult to obtain reliable, comparable statistics on crime rates, conviction rates, and
     so on, the current situation is extremely complex and only a small fraction of violent
     crimes are ever prosecuted or resolved. The U.S. State Department’s human rights
     report for 2008 refers to the Guatemala government's failure to investigate and
     punish unlawful killings committed by members of the security forces; widespread
     societal violence, including numerous killings; corruption and substantial
     inadequacies in the police and judicial sectors; police involvement in kidnappings;
     impunity for criminal activity; harsh and dangerous prison conditions; arbitrary arrest
     and detention; failure of the judicial system to ensure full and timely investigations
     and fair trials; and failure to protect judicial sector officials, witnesses, and civil
     society representatives from intimidation; among other serious problems.

•    Competition – Free and fair elections are well established in Guatemala, and
     60 percent of eligible voters participated in the first round of the 2007 presidential
     elections. Political parties are weak, though, making it hard for parties to serve as a
     channel for translating citizen demands into responsive policies. Institutional checks
     and balances are often undermined by corruption, widespread patronage, and
     intimidation.

•    Inclusion – Income inequality is extreme in Guatemala, and indigenous citizens are
     largely excluded from political and economic competition. Voter participation among
     indigenous people, especially indigenous women, is lower than for other groups.

•    Good Governance – The 2003 strategy stated that “democratic government is not yet
     effective in ‘delivering the goods’—public safety, law and order, reasonable justice,

1
    USAID Office of Democracy and Governance (2000), “Conducting a DG Assessment: A
    Framework for Strategy Development (Technical Publications Series, PN-ACP-338).


                                                                                               3
    social services, and economic growth.” Citizen surveys show low confidence in most
    government institutions. The country scorecards published by the Millennium
    Challenge Corporation show that Guatemala compares unfavorably with other lower
    middle-income countries with respect to most policy indicators for ruling justly,
    investing in people, and economic freedom.

The USAID/Guatemala’s democracy and governance program focuses on strengthening
the rule of law and greater transparency and accountability in government. The program
began in September 2004 and it is expected to end in September 2009. The USAID
budget for the program is $36.7 million. As of September 30, 2008, USAID/Guatemala
had obligated $36.1 million and disbursed $23.8 million under the program.

USAID/Guatemala implemented its democracy and governance program through 12
contracts and agreements:

•   Casals and Associates Inc. (Casals) was awarded a $23.4 million multicountry
    contract ($4.8 million for Guatemala) that was in effect from January 24, 2004, to
    March 30, 2009. The program included activities to improve the institutional and
    legal framework, to introduce government incentive structures to encourage greater
    accountability in the allocation and use of public resources, to promote effective
    internal government auditing and checks and balance systems, and to promote
    greater citizen and media oversight of public funds.

•   Checchi and Company Consultants, Inc. (Checchi) was awarded a $7.9 million
    contract that runs from September 20, 2004, to September 29, 2009. The
    agreement provided resources to support three results: (1) improve transparency
    and efficiency of criminal judicial processes; (2) implement crime prevention
    programs; and (3) increased support for justice reform.

•   Management Sciences for Development, Inc. (MSD) was awarded a $2.1 million
    contract that ran from February 24, 2006, to September 30, 2009. The objective of
    this task order was to introduce community-based policing concepts to Guatemala's
    Ministry of Government and National Civil Police, and support these agencies as
    they put them into practice in Villa Nueva (a large suburb of Guatemala City with a
    high crime rate and heavy presence of youth gangs and other organized crime) and
    other selected areas.

•   Creative Associates International, Inc. (CAII) was awarded a $1.6 million cooperative
    agreement in effect from September 22, 2004, to January 31, 2008. The purpose of
    the crime prevention for the vulnerable youth alliance program was to implement
    effective and sustainable crime prevention programs and development of strategic
    violence reduction alliances.

•   CAII was awarded a second $1 million cooperative agreement in effect from April 18,
    2008, to September 30, 2009. The purpose of the Youth Challenge Program was to
    reduce victims of crime in selected areas and implement effective sustainable youth
    at-risk centers.

•   Devtech System Inc. (Devtech) was awarded a $5.5 million contract that was in
    effect from January 13, 2004, to September 30, 2009. The contractor was



                                                                                       4
    responsible for achieving three results: (1) more transparent systems for
    management of public resources by local governments, (2) increase devolution of
    responsibilities and resources to the local level resulting in greater responsiveness to
    citizens' needs, and (3) more opportunities for citizen participation in and oversight of
    local government decisionmaking.

The following activities were not included in the scope of this audit because the activities
had ended by the time of the audit or because of the limited amount of resources
involved:

•   The Consortium for Electoral and Political Processes (CEPPS) was awarded a $1.1
    million cooperative agreement that was in effect from December 4, 2006, to February
    28, 2008. The purpose of the agreement was to (1) strengthen the technical
    capacity of the domestic monitoring consortium Mirador Electoral to organize and
    conduct a comprehensive range of preelection and election day monitoring activities;
    and (2) increase the capacity of Mirador Electoral to manage subgrant funds and
    raise additional resources from international donors to implement the observation
    activities.

•   The Organization of the American States (OAS) was awarded a $700,000
    cooperative agreement that was in effect from March 16, 2006, to January 31, 2008.
    The purpose of the agreement was to assist the Tribunal Supremo Electoral (TSE)
    and other key actors involved in updating and cleaning the current voter registry; and
    to provide technical assistance to the TSE to provide greater public information on
    the actions related with the voter registry.

•   The Justice Study Center of the Americas (CEJA) was awarded a $100,000
    agreement that was in effect from July 11, 2005, to September 29, 2009. The
    purpose of the agreement was to carry out a measuring of Rule of Law indicators
    from the Guatemala Judiciary and to strengthen its capacities in managing
    information.

•   The United Nations Development Program (UNDP) was awarded a $7.7 million
    agreement that was in effect from January 11, 2001, to December 31, 2008. The
    purpose of the agreement was to provide support to the Guatemalan Forensic
    Anthropological Foundation and local nongovernmental organizations engaged in
    exhumation of remains from the civil war in Guatemala and related mental health
    services.

•   UNDP was awarded a second $100,000 agreement that is in effect from April 10,
    2007, to November 30, 2009. The purpose of the agreement is to carry out a
    comprehensive inventory of the public sector workforce within the Government of
    Guatemala's executive branch.

•   KPMG Guatemala, S.A., was awarded a $100,000 agreement that was in effect from
    May 8, 2006, to December 30, 2008. The purpose of the agreement was to assist
    the Office of the Comptroller General in strengthening its internal controls and audit
    capabilities to more effectively carry out its mandate as Guatemala’s Supreme Audit
    Institution.




                                                                                           5
AUDIT OBJECTIVES
As part of its fiscal year 2009 annual plan, Regional Inspector General/San Salvador
carried out an audit of USAID/Guatemala’s democracy and governance program. The
audit was designed to answer the following questions:

•   Did USAID/Guatemala’s democracy and governance program achieve planned
    results and what has been the impact?

•   Did USAID/Guatemala’s reporting on its democracy and governance program
    provide stakeholders with complete and accurate information on the progress of the
    activities and the results achieved?

The audit’s scope and methodology are described in appendix I.




                                                                                    6
AUDIT FINDINGS
Did USAID/Guatemala’s democracy and governance program
achieve planned results and what has been the impact?
It was difficult to assess the overall results or impact of the program because
USAID/Guatemala had not prepared a complete performance management plan (PMP),
including performance measures and targets for the program. Therefore, this audit
assessed overall program results and impact by obtaining information on those PMP
performance indicators for which actual results were available, examining information on
national-level democracy and governance trends (including survey data from the Latin
American Public Opinion Program), examining results achieved under the individual
contracts and cooperative agreements awarded under the program, and interviewing
program participants and stakeholders.

USAID/Guatemala’s democracy and governance program has achieved some important
planned results, notably the following:

•   Establishment of four model 24-hour courts in which police, public defenders,
    prosecutors, and judges are co-located to improve efficiency in processing criminal
    cases.

•   Improvement of administrative processes in 13 targeted municipalities, including
    making these processes more transparent.

•   Demonstration of approaches for helping to rehabilitate former gang members and
    helping prevent vulnerable youth from joining gangs.

•   Expansion of voting locations into rural areas, helping to increase voter participation
    in the 2008 presidential elections.

•   Passage of a law providing for public access to government information.

Given the challenging environment in which the program was implemented, these are
impressive achievements. For the most part, however, the activities financed by
USAID/Guatemala have not achieved sufficient scale to significantly influence national
democracy and governance trends, many of which are negative.

Appendix III compares target levels of performance and actual results, where available,
for the performance indicators in the PMP.          While no targets for government
effectiveness and government transparency were set, these measures showed modest
improvement during the period examined. In 2007, Guatemala’s score on the World
Bank’s government effectiveness indicator was -0.59 on a scale from -2.5 to 2.5, a slight
improvement from -0.64 in 2006 (calendar year basis). This improvement was not
statistically significant. Government transparency was to be measured by the
Transparency International corruption perceptions index, which improved from 2.6 in
2006 to 2.8 in 2007 and 3.1 in 2008 (calendar year basis). Again, these changes are not
statistically significant.



                                                                                         7
The other high-level indicators in the PMP—budget transparency, citizen satisfaction
with the judicial system, citizen satisfaction with local government services, and
percentage of corruption victimization—either showed modest declines or fell short of
expectations during the period examined. Budget transparency is measured by
Guatemala’s scores on the International Budget Project’s open budget index, which is
published every 2 years. Guatemala’s score in 2008 (45 on a scale from 1 to 100) was
slightly lower than its score of 46 in 2006 (earlier data were not available). Citizen
satisfaction with the judicial system in 2008, at 45 percent, fell short of the target of 48
percent, and citizen satisfaction with local government services, at 56 percent, fell short
of the target of 73 percent. Similarly, the percentage of citizens directly victimized by
petty corruption in 2008 (20 percent) was higher than the target of 16 percent, indicating
that this performance target was not met.

For the lower-level indicators in the PMP—the frequency with which pretrial hearings
were conducted orally, numbers of vulnerable youth trained and employed, and so on—
results were mixed. (See appendix III for details.)

Information on national-level democracy and governance trends is available from the
World Bank, Freedom House, and the Latin American Public Opinion Project, among
other sources. The World Bank governance indicators are available only up through
2007. As one would expect, the data reflect fluctuations from random occurrences as
well as from deeper and more sustained influences. From 2003 through 2007, the
indicators for voice and accountability, political stability, and regulatory quality have all
improved, although none of the improvements are statistically significant. The indicators
for government effectiveness, rule of law, and control of corruption have all deteriorated,
but again none of these changes are statistically significant (Figure 1).

Figure 1. World Bank Governance Indicators, 1996–2007

                       Voi c e a n d A c c o un t a b i l i t y                                               P o l i t i c a l S t a bi l i t y


  0.4                                                                                    0
                                                                                              1996   1998   2000     2002       2003       2004    2005   2006   2007
  0.2
                                                                                       -0.5

    0
         1996   1998     2000     2002      2003     2004         2005   2006   2007    -1
  -0.2
                                                                                       -1.5
  -0.4

                                                                                        -2
  -0.6

  -0.8                                                                                 -2.5

   -1
                                                                                        -3




                                                                                                                                                                        8
                         Go v e r nm e n t Ef f e c t i v e ne ss                                          R e g ul a t or y Qua l i t y


     0.2                                                                            0.6

       0                                                                            0.4
           1996   1998      2000     2002     2003    2004     2005   2006   2007
    -0.2                                                                            0.2

                                                                                      0
    -0.4
                                                                                           1996   1998   2000     2002     2003      2004      2005   2006   2007
                                                                                    -0.2
    -0.6
                                                                                    -0.4
    -0.8
                                                                                    -0.6
      -1
                                                                                    -0.8

    -1.2                                                                             -1




                                    R ul e o f La w                                                      C o nt r o l o f C o r r up t i o n


      0                                                                               0
           1996   1998     2000     2002     2003     2004     2005   2006   2007          1996   1998   2000     2002     2003      2004      2005   2006   2007
    -0.2                                                                            -0.2

    -0.4                                                                            -0.4

    -0.6                                                                            -0.6

    -0.8                                                                            -0.8

     -1                                                                              -1

    -1.2                                                                            -1.2

    -1.4                                                                            -1.4

    -1.6                                                                            -1.6




Note: The World Bank scales these scores so that the median score for all countries is 0 and essentially all
scores fall between 2.5 (best) and -2.5 (worst). The 95 percent confidence interval is indicated by dotted
lines.

The Freedom House civil rights index showed no change during the program (at 4 on a
scale from 1 to 5, with 1 being the best possible score), while the political rights index
improved from 4 to 3 in 2007 and stayed at 3 in 2008.

Public attitudes, as measured by the Latin American Public Opinion Project deteriorated
in important respects from 2006 to 2008. The percentage of respondents with low
support for key institutions and low political tolerance (i.e., respondents in the
“democracy-at-risk” category) increased from 26 percent to 38 percent during this
period. This “democracy-at-risk” level is the third highest in the region after Haiti and
Honduras. Citizen confidence in key justice institutions (e.g., the Supreme Court, the
justice system, and the police) showed small declines that were not statistically
significant. 2 On the other hand, confidence in the national government showed a
statistically significant increase, from 44 to 50 percent.

Program participants (implementers and beneficiaries) and stakeholders in the U.S.
Embassy, other donor organizations, and civil society organizations expressed positive
opinions of the performance of the democracy and governance program.

The following sections examine the results achieved under individual contracts and
cooperative agreements that were awarded under the program.


2
    Confidence in these justice institutions ranged from 40 percent to 44 percent in 2008.


                                                                                                                                                                    9
Youth Alliance and Youth Challenge Programs – The most important
accomplishments under the Youth Alliance Program, which ended in January 2008,
were as follows:

•   Creation of a five-episode reality television show in which former gang members
    established and operated businesses.

•   Establishment of seven outreach centers to train vulnerable youth in basic life skills
    and job skills as well as providing creative outlets for use of free time to help prevent
    youth from joining gangs. The operating costs of these centers are estimated
    between $16,000 and $19,000 a year, and one of the centers has operated for more
    than a year with no direct USAID support, demonstrating that outreach centers can
    operate sustainably after donor support ends.

•   Creation of alliances with entrepreneurs, faith-based organizations, and
    municipalities who collaborated on program activities and contributed resources.

On the other hand, employment of former gang members fell short of expectations.
Appendix IV compares target levels of performance and actual results, where available,
for the performance indicators for USAID Youth Alliance Program.

Under the follow-on program, called Youth Challenge, USAID/Guatemala and its partner
have not yet established targets for all of the performance indicators to measure results
and impact of the program. The program performance indicators, targets, and reported
results are provided in appendix V.

Rule of Law – Through the rule of law program, USAID’s partner has helped implement
oral procedures in pretrial hearings and has introduced four model 24-hour courts that
have improved coordination among police, public defenders, prosecutors, and judges.
No impacts on case processing time or other outcomes have been recorded at the
national level, and even in the specific jurisdictions in which model courts have been
established, results are mixed or baseline data are not available to measure
improvements. Rule of law performance indicators, targets, and reported results are
provided in appendix VI.

Community-Based Policing Program – The community-based policing program in
Villa Nueva, Guatemala, is part of a broader U.S. Government–funded effort to reduce
crime and includes a program administered by the Narcotics and Law Enforcement
Section in the U.S. Embassy. The most important activities were a diagnostic
assessment, police training, and youth crime prevention activities:

•   USAID’s partner hired a consulting firm to conduct a diagnostic assessment of the
    National Police. The assessment identified 10 issues that have negatively affected
    the effectiveness of the institution.

•   The program supported a training initiative for 80 police officers stationed at
    precincts around the country charged with providing victim/witness services. Also,
    the program provided training to increase the quality of information recorded for
    followup by criminal investigators and prosecutors.




                                                                                          10
•   The program facilitated a number of interventions that targeted youth at risk of joining
    street gangs. For example, 25 youth from Escuela de Ciudad del Sol were placed in
    a basic electrician’s course at the National Vocational Training Agency.

Community-based policy performance indicators, targets, and reported results are
provided in appendix VII.

Decentralization and Local Governance Program – This program was successful in
implementing improved administrative procedures in selected municipalities as outlined
in more detail in appendix VIII. Notable examples include support for full implementation
of the Integrated Financial Administration System and a procurement information system
(Guatecompras). However, the program has not yet demonstrated success in improving
municipal services. Program performance indicators, targets, and reported results are
provided in appendix VIII.

Anticorruption, Transparency, and Accountability Program – This program seeks to
improve the institutional and legal framework; to introduce government incentive
structures to encourage greater accountability; to promote effective internal government
auditing and checks and balances; and to promote greater citizen and media oversight
of public funds. The program had some successful activities to achieve this, most
notably the following:

•   Support for passage of the Free Access to Government Information law, which went
    into effect on April 21, 2009.

•   Support for research studies whose findings were presented to the public and press.

•   Support for transparency initiatives, including social auditing (which involves training
    citizens to monitor government performance and compliance with established laws,
    regulations, and procedures).

•   Assistance monitoring the Government’s implementation of the Inter-American
    Convention Against Corruption (IACC).

•   Oversight of electoral campaign financing regulations.

•   Training for investigative journalists.

This program had a difficult start because of senior management turnover within the
partner’s team and a change in focus from working directly with the Government of
Guatemala to working more closely with civil society advocacy groups. This shift
occurred after the partner found little political will on the part of the Government to
implement significant reforms. The anticorruption, transparency, and accountability
performance indicators, targets, and reported results are provided in appendix IX.

Although USAID/Guatemala’s democracy and governance program has reported some
important accomplishments as outlined above, actions are needed to increase the
potential impact of the follow-on program, better measure the effectiveness of training
provided to program participants, and better ensure that required contributions by third
parties are obtained. These issues are discussed in the following sections.



                                                                                         11
Program Impact Can Be Enhanced
Summary: USAID programs are expected to support transformational change in
developing countries. However, the democracy and governance program mainly
focused on small-scale initiatives. For example, in the rule of law component,
USAID/Guatemala’s contractor developed a 24-hour court model and implemented the
model in four first-instance courts. However, the model has not been implemented in the
other 49 first-instance courts in Guatemala and, even in the jurisdictions in which it has
been implemented, statistics to measure its impact on outcomes like case processing
speed, conviction rates, and so on are not available or show mixed results. This
outcome was partly a result of the level of resources available and partly a result of
reluctance by counterparts to undertake significant reforms. As a result, with few
exceptions, the program has not significantly influenced national-level indicators of the
quality of governance.

The State-USAID foreign assistance framework establishes an expectation that USAID
programs will support transformational diplomacy; USAID programs, in conjunction with
other donor programs and host countries’ own efforts, will help move countries through a
development process that ultimately leads to their graduation from the U.S. foreign
assistance program. 3 Transformational changes are not expected to take place in the
short term, but they are expected to take place within some foreseeable time horizon. 4

The results achieved to date, while reflecting sustained, technically sophisticated efforts
by USAID/Guatemala and its partners, are not transformational in most cases. For the
most part, the program has focused on demonstrating small successes. For example,

•    Although, the 24-hour courts established under the rule of law program component
     are an important innovation, it is not possible to draw any cause-and-effect
     relationships between the 24-hour courts and national trends in prosecution rates,
     conviction rates, or case processing time. (In fact, even in the jurisdictions where the
     24-hour courts were established, statistics to demonstrate their impact are either
     unavailable or show mixed results.)

•    Under the decentralization and local governance program, USAID’s partners helped
     13 municipalities (or a subset of the 13 municipalities, depending on the specific
     intervention under discussion) implement improved administrative procedures and
     raise revenues. But because the partner only worked in a small portion of the 330
     municipalities in Guatemala, the program has not achieved national-level results.

•    The Youth Alliance and Youth Challenge programs have demonstrated cost-
     effective, sustainable approaches to gang prevention and rehabilitation, but activities
     to date have been implemented on a small scale. For example, the programs

3
    The foreign assistance framework describes a development continuum that includes rebuilding
    countries, developing countries, transforming countries, and sustaining partnership countries.
    Guatemala is classified as a developing country: it is a lower-middle-income country that does
    not meet the criteria for eligibility for assistance from the Millennium Challenge Corporation
    (MCC), and it does not meet the MCC criterion for political rights.
4
    Note that the strategy for USAID/Guatemala’s democracy and governance program predated
    the foreign assistance framework.


                                                                                               12
     reportedly found jobs for 239 former gang members but a 2006 assessment
     estimated that at least 14,000 gang members were active in Guatemala. 5

To some degree, the small scale of the activities supported through the program was a
result of the level of resources available. However, transformational change does not
have to be expensive. Fundamental reforms can cost almost nothing in monetary terms,
although they may require expenditure of political capital.

In our view, reforms are undertaken when incentives change, and changing incentives
can be a powerful stimulus to reform efforts. USAID/Guatemala’s previous program
included support for civil society advocacy efforts, but the 2003 regional strategy did not
envision a need to continue such efforts. Looking forward, there is a need to resume
support for civil society organizations. Political parties in Guatemala are weak—people
identify with political parties at a lower rate than in any other country in the region—and it
is not reasonable to expect that political parties will serve as effective channels to
translate citizen demands for reform into policies. In contrast, civil society organizations
have high rates of participation in Guatemala and have a record of important
achievements—like the establishment of International Commission Against Impunity in
Guatemala (CICIG) and passage of the access to public information law. In fact, it could
be argued that civil society organizations are strong enough in Guatemala and do not
need USAID’s help. But if civil society organizations were “strong enough,” the quality of
governance would be much higher. This audit emphasizes that support for civil society
organizations need not be expensive. The fact that a civil society organization enjoys
USAID’s support (or the support of other international donors) can elevate its prestige
and effectiveness, independent of the monetary value of the support provided.

Another factor limiting the program’s effectiveness in producing significant, lasting
improvement in the functioning of government institutions is the lack of a stable civil
service workforce at the national and municipal levels in Guatemala. This forced
USAID’s partners to work with inexperienced counterparts in many cases and, after the
2008 elections, forced them to retrace their steps to bring new counterparts up to speed.

As a result, USAID/Guatemala’s current democracy and governance activities, with few
exceptions, have not significantly influenced national-level indicators of the quality of
governance. 6

     Recommendation No. 1: We recommend that USAID/Guatemala’s follow-on
     democracy and governance program aim to implement reforms at sufficient scale
     to achieve transformational impact.




5
    In addition, not all of the former gang members are still working at the jobs they found through
    the programs. While this audit does not make a formal recommendation, it may be worthwhile
    to periodically follow up to see how many of the former gang members are still employed and
    identify obstacles or issues to continued employment that the program can address.
6
    One exception would be USAID’s support for expansion of voting stations into rural areas,
    which many believe encouraged wider participation in the 2008 elections, and a second
    exception would be USAID’s support for passage of the Free Access to Government
    Information law, which, when implemented, may well have transformational effects.


                                                                                                 13
   Recommendation No. 2: We recommend that USAID/Guatemala include support
   for civil society advocacy efforts in its follow-on program or arrange for such
   support in coordination with other donors.

   Recommendation No. 3: We recommend that USAID/Guatemala condition
   further efforts to train Government of Guatemala employees on progress toward
   civil service reform.

Evaluation of Management Comments:

In its response to the draft report, the mission disagreed with audit recommendation no.
1. The main reason why it disagreed was because of the reference to a criterion that the
mission stated no policy or guidance existed as to how to incorporate transformational
development goals into democracy and governance development activities. We
followed up with the mission to further address this recommendation and provide
additional insight as to intent of this recommendation. Our position was that to not give
this recommendation consideration because of the lack of policy, strategy or operational
guidance was not adequate. We agreed that there was no defined criterion for
transformational goals; however, Guatemala faces some rather alarming governability
challenges and in important respects the situation is deteriorating. The concept of
transformational development deals with significant, national-level change, and it is also
clear that strategies and programs for achieving transformational development will need
to respond to country-specific circumstances, constraints, and opportunities. While
better operational guidance would provide more clarity, almost all of the work required to
achieve     transformational     development—analysis,     coalition    building,  project
development, and project management—will fall under the USAID mission’s
responsibility. Therefore, we pressed the mission to address the possibilities for
incorporating strategies and programs under its proposed new projects outlined in its
activity approval document designed for the purpose of achieving transformational
development.

In its followup response, the mission provided copies of its follow-on project descriptions.
We believe that the mission’s project on transparency and accountability is a positive
step that addresses some of the critical issues that have negatively affected the
Government’s ability to be transparent and accountable to its citizens. Furthermore, we
see it as positive that resources will be directed at increasing and strengthening
participation of the civil society organizations in watchdog activities and oversight of
public resources. Additionally, it is a positive move that the mission intends to promote
and engage the private sector in the fight against corruption. The activities incorporated
within this project could contribute at achieving progress toward having a
transformational impact. As a result, we consider that the mission has taken appropriate
action and we consider that final action has been taken on this recommendation.

The mission agreed with audit recommendation no. 2. In its response the mission
explained recent changes to its updated activity approval document with emphasis
placed on supporting civil society.        Furthermore, the mission explained its
implementation mechanism that it intends to use to facilitate implementation activities in
support of civil society. Lastly, the mission provided support demonstrating recent
procurement of services for the purpose of assisting civil society organizations. Based
on the mission's response and review of the supporting documentation, we consider that
final action has been taken on this recommendation.


                                                                                         14
In its response to the draft report, the mission did not agree with audit recommendation
no. 3. The underlying reason for the disagreement was because the mission interpreted
our recommendation to mean that it should make civil service reform a precondition to
further training. As well, the mission commented that it believes that civil service reform,
though important, is beyond the capacity of its current program.

We followed up with the mission to provide additional insight as to our expectations. We
explained that the intention was not to curtail support for training government employees
but rather to encourage movement toward significant civil service reform. Our expectation
was that the mission would use its leadership in Guatemala to push a coordinated effort
within the donor community to support civil service reform. The audit revealed that, in
Guatemala, government jobs are used as patronage positions, with wholesale changes
after each election. Hence, training can perhaps help new employees achieve basic
proficiency in their jobs, but it cannot build government capacity over the longer term.
Therefore, we asked the mission to further consider working with the donor community in
encouraging and moving in the direction of significant civil service reform. Without such a
goal in mind, it is difficult to understand what larger purpose training of government
employees would serve. On this basis, we believed that USAID/Guatemala needed to
demonstrate further, more proactive measures.

In its followup response, USAID/Guatemala commented that it agreed with the
recommendation and agreed to assume a leadership role in the international donor
community to pressure and support the Government of Guatemala to move forward with
legislation that would require all Government of Guatemala agencies to establish a civil
service, and then effectively implement that legislation over a reasonable time period.
We reviewed the mission’s followup comments, and we consider that it has taken
appropriate action and consider this recommendation closed upon report issuance.

Partners Should Assess the
Effectiveness of Training
Summary:       Automated Directives System (ADS) 203.3.2 requires that USAID
Missions/Offices and their Assistance Objective (AO) Teams are responsible for
measuring      progress      towards     achieving     foreign    assistance   objectives.
USAID/Guatemala’s implementing partners have not developed systems for measuring the
effectiveness of the training they provide to participants. This was not done because the
development of a formal training evaluation system was not considered during the design
stage of the training. Without some type of assessment of the effectiveness of training,
USAID and its partners do not have precise information on the effectiveness of their
training programs.

Training is a major part of the assistance provided through USAID/Guatemala’s democracy
and governance program. In fiscal years (FYs) 2007 and 2008, USAID/Guatemala, through
its implementing partners, reported training more than 16,594 people in court procedure,
criminal investigation and prosecution techniques, leadership and conflict resolution, and
election observations.

According to ADS 203.3.2, USAID Missions/Offices and their AO Teams are
responsible for measuring progress towards the results identified in the planning


                                                                                         15
stage to achieve foreign assistance objectives. According to ADS 253, Training for
Development, training sponsors are encouraged to consider the broader operational context
in which the participant’s newly acquired skills, knowledge, and attitudes will be applied.

Donald Kirkpatrick’s training evaluation model, a widely used model, suggests that training
evaluations can focus on four types of training effects: (1) how participants thought or felt
about the training (i.e., their reaction to the training); (2) changes in knowledge, skills, and
abilities; (3) application of training on the job (i.e., behavioral changes); and (4) results (i.e.,
changes in organizational performance that are caused by employee training).7 Taking into
consideration the costs associated with training evaluation, it might be appropriate to use
participant questionnaires or some other participant feedback mechanism, as well as pre-
and post-tests to measure changes in knowledge, skills, or attitudes, for almost all training
programs. For more expensive training programs, or programs of strategic importance, it
would be advisable to maintain contact with participants after they complete the training, or
to visit them on the job to determine the extent to which participants have been able to apply
this training and see whether organizational performance changed as a result. To the
degree that continued contact or visits to participants at their work sites reveal challenges
with respect to the organizational climate, incentives, or other factors that make it hard to
apply on-the-job training, future training programs or other interventions can be devised to
address those constraints.

USAID/Guatemala’s partners have not developed formal systems for evaluating the
effectiveness of the training provided by its implementing partners to the participants. The
impact of training was not measured because the development of a formal training
evaluation system was not considered by USAID/Guatemala or its implementing partners
during the design stage of the training.

As a result, USAID/Guatemala and its partners do not have precise or reliable information
on the degree to which its training programs are having the desired impact or could be better
tailored to the needs of the participants. Assessing the impact of training may yield greater
returns on training investments and provide management better information to determine
future training needs.

     Recommendation No. 4: We recommend that USAID/Guatemala, in coordination
     with its implementing partners, establish procedures for systematically evaluating
     and following up with training participants as appropriate to assess the impact
     and effectiveness of training.

Evaluation of Management Comments:

The mission agreed with the audit recommendation no 4. The mission reported that it is
in the process of coordinating with USAID/Washington seeking assistance to develop
procedures to assess the effectiveness and impact of its training activities. The mission
expects to have identified a plan of action by November 2009. Based on the mission's
response, we consider that a management decision has been taken on this
recommendation and determination of final action will be made by the Audit
Performance and Compliance Division upon completion of the planned corrective action.


7
    Donald Kirkpatrick, Evaluating Training Programs: The Four Levels, Berrett-Koehler
    Publishers, 1998.


                                                                                                 16
Leverage Contributions for the Youth
Alliance Program Were Overstated
Summary: One of USAID’s partners agreed to provide $1.7 million in leverage
contributions (i.e., contributions from third parties) to a gang prevention program. The
partner reported that it exceeded the required amount, but, after excluding amounts that
were either ineligible or unsupported, there was a shortfall of $634,426. While the
partner was subject to annual audit through the Office of Management and Budget
(OMB) Circular A-133 audit program, these audits cover only a sample of transactions,
and it can be hard for U.S.-based auditors to develop the understanding of local
conditions and business practices that would help them evaluate the eligibility of
leverage contributions. Given these circumstances, it might be useful for mission staff to
periodically verify that required leverage contributions are actually being provided.
Besides noncompliance with the cooperative agreement, contributions that are not
provided impede accomplishment of program objectives.

Creative Associates agreed to provide leverage contributions of $1,651,020 under a
cooperative agreement that ended on January 31, 2008. Leveraging represents all of the
non-USAID resources that are expected to be applied to a program as a result of an alliance
or public-private partnership. This includes resources that third parties (not the recipient
organization) contribute to the program without necessarily providing them to the USAID
recipient or implementing partner. These parties can include the host government, private
foundations, businesses, or individuals. In-kind contributions such as volunteer time,
donated supplies, equipment and other property, and use of unrecovered indirect costs are
allowable in accordance with OMB Circular A-110. Entities must be able to demonstrate
whether leveraged contributions have been obtained as proposed to determine whether the
desired impacts are being achieved, and USAID may revise or withdraw its support when
contributions are not forthcoming as originally agreed.

As of January 31, 2008, reported leverage contributions totaled $1,731,747. However, this
amount included ineligible contributions of $598,188 and unsupported contributions of
$36,238:

•   The ineligible contributions represent the value of a house that was not used under the
    program. A third party agreed to provide the house for use under the program and
    provided an estimate that use of the house for a 20-year period would be worth
    $646,690. This was the amount that Creative Associates recorded as a contribution in
    July 2005. However, the house was used under the program for only about one and a
    half years. Proportionally allocating the estimated value of use of the house as given
    above, the value to the program during this year and a half was only $48,502, leaving
    $598,188 in reported contributions that were not program related and therefore ineligible.

•   The unsupported contributions represent the value recorded for volunteer work on the
    program for which no supporting documentation is available.

In addition to the ineligible and unsupported contributions mentioned above, valuation of
volunteer work on the program appeared to be arbitrary in some cases. Creative Associates
recorded whatever value the volunteers placed on their own time, which, for the cases
reviewed, ranged from $0.65 per hour to $50 per hour. For the outreach center in Santa
Catarina Pinula, volunteer time for July 2008 was valued at an average of $11.42 per hour,


                                                                                           17
which appeared to be a high estimate given that most of the volunteers at the center during
the March 2009 visit were teenagers with little or no paid work experience. Creative
Associates planned to implement a new system for valuing volunteer time in which
volunteers would report the hours they worked and Creative Associates would value their
time using standard rates based on the type of work they performed.

U.S.-based entities that implement USAID-financed programs are audited periodically by
the Defense Contract Audit Agency through a reimbursable arrangement with USAID, or
through the OMB Circular A-133 audit program. However, these audits cover only a
sample of transactions and, because the audits focus on documentary records available
in headquarters offices in the United States, it can be difficult for the auditors to acquaint
themselves with local business practices or local price levels. Given these constraints
that limit the effectiveness of audits of U.S.-based entities that implement USAID
programs overseas, it may be appropriate for mission cognizant technical officers
(CTOs) or financial analysts to periodically verify that agreed-on leverage contributions
are actually provided. However, USAID/Guatemala staff had not performed any such
verification.

As the leverage requirement was not met, the Youth Alliance Program lacked resources
that were required by the agreement and needed to achieve project goals. Although the
Youth Alliance Program has ended, a follow-on Youth Challenge Program, implemented
by the same partner, is now under way.

   Recommendation No. 5: We recommend that USAID/Guatemala make a
   determination of eligibility for $36,238 in unsupported leverage contributions and
   $598,188 in ineligible contributions under the Youth Alliance Program and for any
   shortfalls in contributions obtain additional contributions under the current Youth
   Challenge Program.

   Recommendation No. 6: We recommend that USAID/Guatemala verify that
   Creative Associates has implemented a satisfactory system for valuing volunteer
   work under the program.

Evaluation of Management Comments:

The mission agreed with the audit recommendation no 5. In response, the mission will
request Creative Associates to address the eligibility of the unsupported and ineligible
costs.   The mission intends to have taken action on this recommendation by
October 31, 2009. Based on the mission's response we consider that a management
decision has been taken on this recommendation and determination of final action will be
made by the Audit Performance and Compliance Division upon completion of the
planned corrective action.

The mission agreed with the audit recommendation no. 6. In response to the
recommendation, the mission is planning to have Creative Associates issue a final
procedures manual by the end of September 2009 that outlines how to record the
different types of contributions to the project. The mission included in its response
Creative Associates' draft version for our review. Based on the mission's response, we
consider that a management decision has been taken on this recommendation and
determination of final action will be made by the Audit Performance and Compliance
Division upon completion of the planned corrective action.


                                                                                           18
Did USAID/Guatemala’s reporting on its democracy and
governance program provide stakeholders with complete and
accurate information on the progress of the program and the
results achieved?
USAID/Guatemala’s reporting on its democracy and governance program provided
stakeholders with complete and accurate information for 16 of 30 items tested, but
reported inaccurate results for 14 of 30 items tested. In addition, the USAID/Guatemala
democracy and governance program does not have a complete PMP.

The reporting issues found are discussed in the following section.

Data Reporting Needs
To Be Strengthened
Summary:       Performance information should accurately reflect the program’s
performance and enable management to make appropriate decisions based on the
reported data. For 14 of 30 cases tested, USAID/Guatemala did not accurately reflect
the program’s performance and enable management to make appropriate decisions.
These inaccuracies occurred because the data reported by implementing partners were
not verified by USAID/Guatemala. Consequently, some inaccuracies in reporting went
unnoticed by USAID/Guatemala. When data are not verified, there is a risk that
inaccurate information will be used to reach conclusions about the program’s success.

ADS section 203.5.1 requires that performance data meet the five data quality standards
of validity, integrity, precision, reliability, and timeliness. Behind these standards is the
idea that data should accurately reflect the program’s performance and enable
management to make appropriate decisions based on the reported data. Some of the
results reported by USAID/Guatemala and its implementing partners did not accurately
reflect actual performance.

Fourteen items in the performance reports for FY 2007 and FY 2008 were inaccurate.
Some examples include the following:

•   The mission’s performance report for FY 2007 stated that 3,888 volunteer observers
    monitored elections, but elsewhere on the same page, the report referred to 3,800
    volunteer observers and the original source document referred to 3,588 volunteer
    observers. According to the CTO, these differences were due to transcription errors.

•   In its FY 2007 performance report, USAID/Guatemala reported that USAID assisted
    with the resolution of more than 125 land conflict cases, benefiting more than 6,800
    indigenous families. However, this result cannot be linked to USAID assistance.
    The result was accomplished by a nongovernmental organization (NGO) that
    received assistance from the European Union and the Government of Ireland but not
    from USAID.

•   USAID/Guatemala reported in its FY 2007 performance report that 927 justice sector
    personnel received training. However, this figure included 627 justice sector


                                                                                          19
    personnel trained by Narcotics Affairs Section, not by USAID or its partner.

•   USAID/Guatemala reported in its FY 2008 performance report that it provided
    assistance to 20 courts to improve the case management system. However, the
    assistance given to some of these courts was general in nature and did not relate
    directly to the improvement of case management.

•   USAID/Guatemala reported in its FY 2008 performance report that its partner trained
    almost 3,000 youth at outreach centers, but the implementing partner could provide
    evidence for only 1,991 youth trained.

•   In FY 2008, the mission reported a 57 percent increase in own-source revenues for
    seven municipalities. However, this increase cannot be linked clearly to USAID
    assistance. While USAID’s partner provided assistance to increase tax revenues,
    the calculation includes many other sources of revenue besides taxes, and no
    assistance was provided to increase revenue from other sources.

In reviewing results reported in the performance reports of FY 2007 and FY 2008, in 1 of
18 results tested, the results reported did not meet the definition of the indicator provided
by the State Department’s Office of the Director of U.S. Foreign Assistance. The
indicator showing this inconsistency was the following: Office of the Director of U.S.
Foreign Assistance

•   Number of laws, codes of conduct, constitutional reforms, and regulations to
    enhance oversight of the security sector, drafted with U.S. Government assistance.
    According to the definition of this indicator, performance is measured by the laws that
    play a role in informing, disciplining, and setting standards of behavior for the
    security sector. The implementing partner developed an information card to collect
    data and reported this as a result under the above indicator. The audit team agreed
    with the implementing partner that the reported result did not relate to the indicator
    definition.

These reporting errors occurred because mission staff relied on their implementing
partners to report results data and did not recognize the importance of independently
verifying data quality.

With information that is unsupported, inaccurate, or not clearly linked to USAID activities,
a risk exists that managers or stakeholders will reach conclusions about the program
based on inaccurate information and make inappropriate decisions on the future
direction of the program.

    Recommendation No. 7: We recommend that USAID/Guatemala, in conjunction
    with its implementing partners, develop and implement a system to reasonably
    ensure that reported information is accurate.

Evaluation of Management Comments:

The mission agreed with the audit recommendation no. 7. In response to the
recommendation, the mission intends to issue a new democracy and governance PMP,
which will include measures to test the veracity of the indicator reporting. The mission



                                                                                          20
intends to submit its plan within 45 days from the date of its response to the draft report.
Based on the mission's response, we consider that a management decision has been
taken on this recommendation and determination of final action will be made by the Audit
Performance and Compliance Division upon completion of the planned corrective action.

Performance Management Plan
Needs to Be Improved
Summary: ADS 203.3.3 establishes a requirement for USAID missions to develop
performance management plans (PMPs). Also, ADS section 203.3.4.6 requires that
missions update PMPs regularly with new performance information. However, the PMP
has not been updated since January 2005. Additionally, USAID/Guatemala has not
established performance targets for some of the PMP performance indicators. This
occurred mainly because mission staff relied on partner annual monitoring and
evaluation plans to monitor progress and did not routinely attempt to validate the
information. As a result of these issues, and the issues discussed in the previous
finding, the mission did not have adequate performance indicators, targets, or reporting
on the results and impact of the program as a whole.

ADS 203.3.3 states that assistance objective (AO) teams must prepare a complete PMP
for each assistance objective for which they are responsible. ADS section 203.3.4.6
states that AO teams should update PMPs regularly with new performance information,
as assistance objectives develop and evolve.

USAID/Guatemala has not updated the PMP for the democracy and governance
program since January 2005. Targets were not established, and the mission did not
obtain reporting on actual results, for most of the performance indicators described in the
PMP.

USAID/Guatemala did not update the PMP because mission staff relied on monitoring
and evaluation plans and reports developed by the implementing partners and did not
routinely attempt to validate the information. The partner reports focused mainly on
lower-level results achieved by individual partners and did not provide a basis for
measuring higher-level results for the program as a whole.

As a result, the mission did not have adequate performance indicators, targets, or
reporting on the results and impact of the program as a whole.

   Recommendation No. 8: We recommend that USAID/Guatemala develop a
   performance management plan for its follow-on democracy and governance
   program that meets USAID policy requirements.

Evaluation of Management Comments:

The mission agreed with recommendation no. 8. In its response to the recommendation,
it incorporated as part of its new PMP a new and more realistic results framework and
was working on the final indicator targets. The mission expects to have this document
finalized within 45 days from the date of its response to the draft report. Based on the
mission's response, a management decision has been taken on this recommendation




                                                                                         21
and determination of final action will be made by the Audit Performance and Compliance
Division upon completion of the planned corrective action.




                                                                                   22
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The purposes of the audit was
to (1) determine whether USAID/Guatemala’s democracy and governance program
achieved planned results and assess its impact and (2) determine whether
USAID/Guatemala’s reporting on the program provided stakeholders with complete and
accurate information on the progress of the activities and the results achieved.

In planning and performing the audit, we assessed the mission’s controls related to its
democracy and governance activities. The management controls identified included the
mission performance management plan (PMP), mission data quality assessments,
cognizant technical officer site visits, program progress reports, day-to-day interaction
between mission staff and program implementers, and the mission’s annual self-
assessment of management controls as required by the Federal Managers’ Financial
Integrity Act of 1982.

The audit was conducted in Guatemala, in the cities of Guatemala City, Chiche, Santa Cruz
de Chiche, and San Antonio de Ilopango, from March 9 to March 27, 2009. The audit
primarily focused on activities carried out during fiscal years (FYs) 2007 and 2008.

Methodology
To assess whether results were achieved, we used the performance indicators included
in the PMP and individual contracts and cooperative agreements. The team interviewed
officials from USAID/Guatemala, the six lead organizations under the original
cooperative agreements, three subpartners, the U.S. Embassy, the National Police of
Guatemala, the Judiciary System, and the Spanish Embassy. We reviewed relevant
documentation produced by USAID/Guatemala, such as the PMP, the operational plan
and performance reports, and award documents.             We also reviewed partner
documentation, such as annual work plans and progress reports, and subpartner
documentation, such as participant training lists and materials, to substantiate reported
accomplishments.

To determine whether accurate and complete information was reported, we interviewed
mission and implementing partner personnel and reviewed documentation to determine
how results are collected for the selected indicators. We validated the reported results
for FYs 2007 and 2008 by comparing reported results with the records maintained at the
offices of the implementing and subpartners and the auditors’ observations during field
visits.




                                                                                      23
                                                                              APPENDIX II



MANAGEMENT COMMENTS
MEMORANDUM
To:            Catherine Trujillo, Regional Inspector General/San Salvador

From:          USAID/Guatemala Mission Director, Wayne R. Nilsestuen

Subject:       Response to Draft Audit Report of USAID/Guatemala’s Democracy and
               Governance Program (Report No. 1-520-09-00X-P)
 
Date:          August 28, 2009


Below please find USAID/Guatemala’s responses to each of the eight recommendations
included in the Draft Audit report of our DG Program.

1. Focus the follow-on program on implementing reforms at a sufficient scale to
   achieve transformational impact.

We do not agree with the recommendation. USAID/Guatemala has not been provided
with policy, strategy or operational guidance on how to incorporate transformational
development goals into democracy/governance programs. USAID/Guatemala searched
the USAID literature and was unable to locate any such guidance. After consulting with
USAID headquarters regarding this issue, LAC/RSD/DHR provided the following
information in response to our query, confirming a lack of guidance and framework for
this recommendation:

        “Background: Secretary Rice announced on January 19, 2006, the restructuring
        of foreign aid as part of a “transformational development” initiative that sought to
        use foreign assistance to transform recipient countries’ economic development
        paths, with the goal of graduating countries from U.S. assistance. A January
        2006 Policy for Bilateral USAID
        http://www.usaid.gov/policy/policy_framework_jan06.pdf) offers a broad definition
        development-wide definition of how to “promote transformational development:
        “promote far-reaching, fundamental changes in governance and institutions,
        human capacity, and economic structure, so that countries can sustain further
        economic and social progress without depending on foreign aid. This goal
        pertains to reasonably stable developing countries, with emphasis on those with
        significant need for concessional assistance and with adequate (or better)
        commitment to ruling justly, promoting economic freedom, and investing in
        people.” This document also indicates that for each goal along the spectrum of
        development categories, graduation criteria will be established. To our
        knowledge in the DCHA/DG Office, no such indicators were ever developed.
        Lastly, since this paper, USAID has had two subsequent Administrators and we
        are now operating under a new US Administration. There is no indication that
        2006 transformational development initiative constitutes current development
        assistance policy.



                                                                                         24
       Discussion: To our knowledge, there is no policy or operational guidance
       regarding how to incorporate transformational development goals into DG
       development assistance programs. The initiative launched by the Former
       Secretary of State Rice offered a categorization of countries along the spectrum
       of development; transformational development being the process of moving a
       country along the continuum to a higher stage. This Rice initiative was not
       operationalized in terms of concrete objectives and benchmarks toward
       achieving the “transformational development” goal, which would indicate that a
       country is eligible for graduation from development assistance. To emphasize
       this point, it is noteworthy that none of the strategy and reporting documents
       developed under Rice through the Office of Foreign Assistance that was created
       as part of the transformational development initiative incorporate the concept of
       transformational development as an operational outcome. Missions have not
       been required to report on progress/benchmarks toward achieving
       “transformational development” in the Mission Strategic Plans, Operational
       Plans, or Program Performance Reviews. Consequently, there is not any DG
       strategy guidance related to transformational development.

       We would not recommend using the broad and amorphous goal of
       transformational development as an objective against which to measure your DG
       programs. Instead, our recommendation for all bilateral DG programs is to
       establish country-based objectives that address the core DG problems to
       democracy and good governance, where there are opportunities to make
       progress or opportunities can be fostered. If your mission believes that there is
       need for an analytical update on these issues, please let us know. We would be
       willing and able to support a DG assessment in Guatemala.

       F also recognized this issue by stating that countries could move along the
       transformational development continuum at a different pace by objective. So a
       country could make significant economic, health, or education progress while not
       progressing on DG. Other combinations are equally probable. So countries
       could, in theory, “graduate” at a different pace by objective. “

Although USAID/Guatemala does not frame its democracy strategy in terms of
transformational development, it has achieved important, high impact, sustainable
results in its DG portfolio over the years. USAID/Guatemala believes that its current and
follow-on democracy program is designed at the appropriate scale considering the level
of available USAID resources, local institutional capacity and the political and
development environment in Guatemala.

Democratic development is a long term process and cannot go forward without first
creating basic levels of human and institutional capacity in developing governmental and
civil society organizations. A great deal of our program activities are designed to insure
that Guatemalans assume leadership roles and basic responsibilities for democratic
reforms and that entails training and institution building. This is the foundation for our
efforts and the only guarantee of long term sustainability for our investments.

In response to the comment that “…the results achieved to date, while reflecting
sustained, technically sophisticated efforts by USAID/Guatemala and its partners, are
not transformational in most cases. For the most part, the program has focused on
demonstrating small successes.” (examples cited: 24 hour courts, local government


                                                                                       25
strengthening in 15 municipalities, gang prevention and rehabilitation): While these
innovative programs are small in scale at this time, they all have attracted a great deal of
attention of the press, academics, the private sector, development practitioners, civil
society, the government and the public in general. These are pilot activities intended to
create models that demonstrate reforms and improvements while generating interest.
The Supreme Court has already identified the next set of communities where they will be
moving 24 hour courts as part of what will be a transformation to having this service
available throughout the countryside. The 24 hour courts in Guatemala City are the
venue where the high profile cases are tried at this time, and have been very useful in
the creation of the new International Commission Against Impunity in Guatemala
(CICIG) high impact courts. Without going into detail, the gang prevention/rehabilitation
activities are also beginning to be more widely replicated and are well known not only in
Guatemala but are being used as a model in the region. In less than a year of
implementation, the new Freedom of Information Law (FOIL) has had a profound impact
on governmental accountability to the public and the press that many would argue has
had an extraordinarily important impact in a short period of time.

USAID believes that a democracy program that attends to both the basics (strengthen
human and organizational capacity) and promotes innovative models that respond to
windows of opportunity provides a balanced strategic focus that can contribute to
democratic development over time.

We disagree with the characterization that the program is “focused on small-scale
initiatives”- we see these as well chosen windows of opportunity that can be replicated in
Guatemala. We also believe that the mundane work of institutional strengthening must
go forward in order for change to take place and be sustainable.

Our follow-on phase was designed to build on the successes of the current program and
also make corrections to strategies that were not working effectively. We expect new
partners and programs to come on line throughout the next year. Many of the
subsequent seven recommendations of this report have been taken into account in the
follow-on design.

Attachment 1 includes our recently approved AAD amendment, reflecting our new
follow-on program. We request that this recommendation be closed on the basis of the
information provided by USAID/Washington as described above and that our AAD is
developed consistent with the country strategy approved by Washington for Guatemala,
as amended annually through the Operational Plan.

2. Include support for civil society advocacy efforts in its follow-on program or
   arrange for such support in coordination with other donors.

USAID/Guatemala agrees with this recommendation. Guatemala is fortunate to have a
vibrant civil society that plays an important role in democratic reforms. Civil society has
been key over the last few years in pressuring government institutions to implement
reforms, and in helping them to do so. As described in our recently approved AAD
amendment, USAID/Guatemala is committed to continue reaching out to civil society
groups as key partners in achieving planned results. Accordingly, in the justice sector,
we plan to “improve GOG institutional capabilities and conditions to combat security
threats …To achieve a multiplier effect for such activities, USAID will also seek the
mobilization of civil society groups to contribute to these efforts.” As in the past, we also


                                                                                          26
plan to support a nation-wide civil society-based observation effort as a key element of
our Elections initiative. Our AAD amendment also foresees that “USAID will strive to
work through civil society organizations representing women and involved in giving them
a voice on issues that affect them directly, including corruption”. Our follow-on program
includes a Rapid Response Fund (RRF) that will be incorporated into each of our new
implementation mechanisms and will facilitate our ability to support civil society. The
RRF will also allow our partners to quickly and effectively support civil society initiatives
as they arise.

In addition, since the IG audit took place we have provided resources directly to two
effective CSOs (Acción Ciudadana and Pro-Justicia) in support of important reforms.

Attachment 2 includes the description of the RRF; and Attachments 3, 4, and 5 show
recent purchase orders with Acción Ciudadana and Pro-Justicia. Based on the
management actions taken to date, we request this recommendation be closed upon
issuance of the final audit report.

3. Condition further efforts to train Government of Guatemala employees on
   progress toward civil service reform.

USAID/Guatemala disagrees with this recommendation. While USAID/Guatemala
strongly concurs that a stable civil service is important to the improvement of
government institutions, we also recognize that this is a long term proposition requiring
considerable resources (beyond our capacity- generally more in line with the levels
provided by the multi-lateral banks).

As a key member of the international donor community, USAID will continue to push the
government and other donors towards supporting major civil service reform.
USAID/Guatemala does not believe it would be effective for us to suspend or otherwise
curtail our training of GoG employees based on lack of progress towards this important
reform. In spite of not having a government wide civil service, some of the institutions
we work with have policies that guarantee some continuity, and retention of personnel
trained by USAID, notably the court system (Judicial Career Law) and Public Ministry
(Attorney General).

We request RIG closure of this recommendation upon the issuance of the final audit
report.

4. Establish procedures for systematically following up with training participants
   to assess the impact and effectiveness of training.

USAID/Guatemala agrees with this recommendation. USAID/Guatemala agrees that
systems to measure progress towards intended learning objectives need to be
established during the design stage of all training programs. The Mission has sought
USAID/Washington’s support in identifying a training specialist who can support the
Mission in the development of procedures to assess the effectiveness and impact of
training activities. The Mission is now working on the specifics of such assistance,
planned to be provided by October 2009 and expects to have a final report detailing a
plan of action ready by November 2009. Moreover, as each of our new implementation
instruments come on line, our COTRs will work with our partners to insure that
corresponding procedures are implemented.


                                                                                          27
USAID/Guatemala requests RIG concurrence with management actions taken thus far
and will request closure of this recommendation upon issuance and submission to
M/MPI of the plan of action.

5. Determine the eligibility of $36,238 in unsupported leverage contributions and
   $598,188 in ineligible contributions under the Youth Alliance Program and, as
   appropriate, obtaining additional contributions.

USAID/Guatemala agrees with this recommendation.                    USAID/Guatemala, in
coordination with its regional A&A office, will request that CAII respond to this finding in
writing, addressing the eligibility of the unsupported contributions and also informing
USAID if they will comply with the full $1.6 million leverage commitment (via other
contributions). Upon receipt of CAII’s response, USAID/Guatemala will request an
eligibility determination from the A&A office and forward it to M/MPI requesting final
action on this recommendation.

The above actions will be completed by October 31, 2009. We request concurrence with
the proposed management actions.

6. Verify that Creative Associates has implemented a satisfactory system for
   valuing volunteer work under the Youth Challenge program.

USAID/Guatemala agrees with this recommendation. CAII has already developed and
delivered the manual included herewith as Attachment 6 that addresses this
recommendation. A final version of the manual incorporating USAID/Guatemala
comments is expected at the Mission by the end of September 2009.

We request the closure of this recommendation upon issuance of the final audit report.

7. Develop and implement a system to reasonably ensure that reported
   information is accurate.

USAID/Guatemala agrees with this recommendation. Under the new instruments to be
implemented in the coming months, COTRs will set up calendars that will require them
to do random sampling of the veracity of indicator reporting on a quarterly basis, using
the Performance Management Plan and more detailed implementation plans. In turn,
the DG office will dedicate one staff meeting every quarter to reviewing the results of this
monitoring in each of its program areas. These actions will be spelled out in the new DG
PMP, to be issued by the Mission within 45 days. The PMP will be submitted in support
of our request for closure of this recommendation.

We request RIG concurrence with planned management actions as outlined above.

8. Develop a performance management plan for its follow-on democracy and
   governance program that meets USAID policy requirements.

USAID/Guatemala agrees with this recommendation. The DG office utilized this report
as a basis for a retreat to improve and restructure the PMP for our follow-on DG
program. USAID/Guatemala now has developed a new and more realistic results
framework, included as part of the attached AAD amendment, and is currently working


                                                                                         28
on the final indicator targets and expects to have the new PMP finalized within 45 days,
shortly before our new follow-on programs begin implementation. Our new PMP will be
forwarded in support of our request for closure of this recommendation.

USAID/Guatemala requests RIG concurrence with proposed management actions.

Based on the above, USAID/Guatemala requests the final report include acceptance of
our management decisions for recommendations 4, 5, 7, 8, and closure of
recommendations 1, 2, 3 and 6 upon issuance of the report.

In closing, USAID/Guatemala thanks RIG/SS auditors and managers for the professional
demeanor in which they conducted this audit, and for their thoughtful recommendations.
The timing of the audit was very helpful as it coincided with our design activities for the
follow-on program, providing a logical and timely opportunity to make several important
improvements.




                                                                                        29
                                                                               APPENDIX III

Performance Management Plan Indicators and Results

Performance Indicator                              FY 2007        FY 2008        FY 2008
                               FY 2007 Target
                                                    Actual         Target         Actual
Strategic objective:
Strengthened rule of law
and greater government
transparency and
accountability.
World Bank government                           -0.59 on a
effectiveness score                             scale from -2.5
(context indicator).                            to 2.5,
                                                a slight
                                 No target                        No target    Not available
                                                increase from
                                                -0.64 in 2006
                                                (calendar year
                                                basis)
Government
responsiveness measured
by level of water and
sanitation coverage as a         No target       Not available    No target    Not available
percentage of the
population (context
indicator).
Government
responsiveness measured
by annual change in water
and sanitation coverage as       No target       Not available    No target    Not available
a percentage of the
population (context
indicator).
Government transparency                         2.8 on a scale                3.1 on a scale
measured by corruption                            from 1 to 5                 from 1 to 5
                                 No target                        No target
perception index (context                       (calendar year                (calendar year
indicator).                                          basis)                   basis)
Budget transparency                                                           Guatemala’s
measured by annual                                                            open budget
change in International                                                       index ranking in
Budget Project oversight                                                      2008 was 45 on
score (context indicator).                                                    a scale from 1
                                 No target       Not available    No target
                                                                              to 100, a slight
                                                                              decline from 46
                                                                              in 2006
                                                                              (calendar year
                                                                              basis)
Budget transparency                                                           Guatemala’s
measured by annual                                                            open budget
change in International                                                       index ranking in
Budget Project citizen                                                        2008 was 45 on
participation score (context                                                  a scale from 1
                                 No target       Not available    No target
indicator).                                                                   to 100, a slight
                                                                              decline from 46
                                                                              in 2006
                                                                              (calendar year
                                                                              basis)


                                                                                           30
                                                                              APPENDIX III


Performance Indicator                              FY 2007       FY 2008        FY 2008
                               FY 2007 Target
                                                    Actual        Target         Actual
Judicial performance,
measured by percentage           No target       Not available   No target    Not available
of criminal cases resolved.
Percentage of compliance
with the Inter-American
                                 No target       Not available   No target    Not available
Convention against
Corruption.
Intermediate result 1:
Strengthened rule of law.
Judicial responsiveness
measured by percentage
responding "satisfied" or
                                    N/A               N/A          48%            45%
"somewhat satisfied" with
the judicial system (context
indicator).
Judicial responsiveness
measured by percentage
responding "satisfied" or
                                    N/A               N/A          48%        Not available
"somewhat satisfied" with
the Public Ministry (context
indicator).
Legal and judicial
performance measured by
average time in calendar
                                 No target       Not available   No target    Not available
days from filing of a
criminal case to final
disposition.
Frequency with which                            92% of first
pretrial hearings are                           instance                     90% of first
conducted orally.                               courts                       instance courts
                                  Always                          Always
                                                reportedly                   reportedly used
                                                used oral                    oral procedures
                                                procedures
Percentage of crime
victimization in targeted        No target       Not available   No target    Not available
areas:
  Villa Nueva
  Huehuetenango
  San Marcos
  Escuintla
  Antigua
Percentage of homicides
in Villa Nueva for which
                                 No target           11%         No target         6%
accusatory instruments are
filed within 1 year.
Level of confidence in the
                                 No target       Not available   No target    Not available
police in targeted areas.
Number of Community
Crime Prevention Councils            5                 5            1               1
in operation.
Number of vulnerable
                                    147          86 reported       176        153 reported
youth working.




                                                                                          31
                                                                           APPENDIX III


Performance Indicator                            FY 2007       FY 2008        FY 2008
                              FY 2007 Target
                                                  Actual        Target         Actual
Number of vulnerable
                                   489         737 reported     1,350      2,630 reported
youth trained.
Intermediate result 2:
Greater government
transparency and
accountability.
Percentage of citizens
expressing satisfaction
with local government           No target      Not available     73%            56%
services (context
indicator).
Percentage of corruption
victimization (context
                                No target      Not available     16%            20%
indicator; lower percentage
is better).
Local government share of
total government
                                No target      Not available   No target    Not available
expenditures (context
indicator).
Access to government                                                       No checklist
information (number of                                                     developed.
items on a checklist that                                                  Implementation
measures the degree of                                                     of a new law
access to various types of                                                 providing
government information).        No target      Not available   No target   access to
                                                                           government
                                                                           information is
                                                                           expected to
                                                                           begin in April
                                                                           2009.
Number of officials that
report publicly on their           10          Not available      10        Not available
work plans and results.
Municipal service delivery
(percentage increase in
coverage for one targeted       No target      Not available   No target    Not available
service in nine targeted
municipalities).
Percentage change in
                                                                  1.5%
own-source revenue in         1.5% increase
                                               Not available    increase    Not available
seven targeted                  over 2006
                                                               over 2007
municipalities.
Number of civil society
representatives trained to
participate in Municipal
Development Councils.
 Male                              224         Not available     214        Not available
 Female                             34         Not available      46        Not available
 Total                             260         Not available     260        Not available
Number of agreements
                                No target      Not available   No target    Not available
signed with municipalities.




                                                                                        32
                                                                             APPENDIX IV

Planned and Reported Results for Youth Alliance Program (Unaudited)

Performance Indicator             FY 2006       FY 2006        FY 2007        FY 2007
                                   Target       Reported        Target        Reported
Youth trained.                      489           737           1,350          2,630
Youth working.                      147           86             176            153
Programs self-sufficient
and/or supported by                  8         Not reported       10         Not reported
partners.
Crime Prevention Councils
                                     5              5              1              1
established and functioning.
Leverage contributions.         $1.3 million   $1.3 million   $1.6 million   $1.73 million
Agreements established
with private sector to               3              6          No target     Not reported
prevent youth crime.
Community members              1,472
volunteering hours per         volunteers or
month to train vulnerable                      36,662 hours    No target     Not reported
                               26,508 hours
and at-risk youth.
Funds to cover outreach
center expenses from
January–June 2007 pledged
                                    90%        Not reported    No target     Not reported
by private sector,
municipalities, and/or
churches.
Youth trained and certified
                                    155            111         No target     Not reported
in basic education.




                                                                                         33
                                                                       APPENDIX V

Planned and Reported Results for Youth Challenge Program (Unaudited)

Performance Indicator                         FY 2008 Target    FY 2008 Reported
Youth provided with jobs.                           200                 12
Youth still in program after 6 months.             75%            Not available
New outreach centers established.                    10                   1
Youth trained at outreach centers.           To be determined          1,592
Youth trained for work at outreach
                                             To be determined           399
centers.
Youth working through outreach centers.      To be determined             4
Perception and attitudes toward youth
                                             To be determined     Not available
involved in crime activities improved.
Youth at risk and crime prevention policy
                                             To be determined     Not available
dialogue with GOG advanced.
Alliance of private sector and other
entities formed to reduce gang violence      To be determined            15
and support PDJ programs.
Leverage contributions raised.                   $1 million          $70,923
Operating centers funded by other
                                             To be determined        $62,000
sources raised.
AAJ capable of independently forming
alliances with donors, private and public
entities to continue launching youth
                                               Independent          In process
violence reduction initiatives w/o technical
assistance of PDJ. Independence and
support from PDJ achieved.
Note: AAJ = Asociacion Alianza Joven; GOG = Government of Guatemala; PDJ = Programa
Desafio Joven.




                                                                                  34
                                                                          APPENDIX VI


Planned and Reported Results for the Rule of Law Program (Unaudited)

Performance Indicator              FY 2007      FY 2007       FY 2008        FY 2008
                                    Target      Reported       Target        Reported
Frequency with which pretrial
hearings are conducted                50           46            50              45
orally.
Number of first instance
criminal courts in which the
                                      2            34            15              47
first instance criminal courts
model is implemented.
Number of justice sector
operators and private
                                     200           495          200             133
attorneys trained in oral
hearing techniques.
Increase in the percentage of
homicide cases in targeted
jurisdictions in which an
accusatory instrument is filed.
Guatemala                           +10%          7%           +10%             9%
Villa Nueva                         +10%          11%          +10%             6%
Mixco                               +10%          10%          +10%             5%
Percentage of disciplinary
cases initiated and resolved
                                     25%       Not reported     30%             706
at the national level within the
PM.
Number of high-impact
human rights cases
prosecuted as a result of          No target   Not reported   No target     Not reported
CICIACS or its equivalent,
recommendations.a
Number of students
completing externships with          275          1,055         275         Not available
justice sector institutions.
Number of administrative and
technical personnel of justice
sector institutions trained on
                                      10            0            20              15
the use of statistical
information for
decisionmaking.
Number of people trained
(male/female/total) in any
training event sponsored by
the program. If post-training
is conducted, the pass rate
must also be reported.
Total                              No target       671        No target        1,244
Male                               No target       423        No target         834
Female                             No target       248        No target         410
Case processing time,
average number of days for
the presentation of
accusation.
Guatemala                          No target   Not reported   No target         146
Villa Nueva                        No target   Not reported   No target         156



                                                                                       35
                                                                                        APPENDIX VI


Performance Indicator                 FY 2007           FY 2007            FY 2008           FY 2008
                                       Target           Reported            Target           Reported
Mixco                                 No target        Not reported        No target           107
Number of individuals/group
who receive legal aid or
                                      No target        Not reported            10                 5
victim's assistance with U.S.
Government support.
Ratio of all dispositions to
new case filings in courts
assisted by the U.S.
Government in the area of
case management.
                                      No target        Not reported        No target            63%
Guatemala
                                      No target        Not reported        No target            66%
Villa Nueva
                                      No target        Not reported        No target            70%
Mixco
Note: CICIACS = Comision para la Investigacion de Cuerpos Ilegales y Aparatos Clandestinos de Seguridad;
CICIG = International Commission Against Impunity in Guatemala; PM = Public Ministry.
a. CICIACS was a planned prosecutorial agency to be established under United Nations auspices in
Guatemala. It never became operational and in its place CICIG, a similar agency that assists in prosecution
of high-impact cases, now operates in Guatemala.




                                                                                                      36
                                                                 APPENDIX VII


Planned and Reported Results for the Community-Based Policing Program
(Unaudited)

Performance Indicator             FY 2007   FY 2007    FY 2008      FY 2008
                                   Target   Reported    Target      Reported
Number of laws, codes of
conduct, constitutional
reforms, and regulations to
enhance oversight of security          1       1         2              1
sector drafted with program
assistance, oversight, and
advocacy.
Number of government
officials undergoing U.S.
                                      160     276       150            509
Government-assisted security
sector governance training
Number of CSOs receiving
                                       6       6         6              4
assistance in security sector
Note: CSO = civil society organizations.




                                                                             37
                                                                            APPENDIX VIII


Planned and Reported Results for the Decentralization and Local Governance
Program (Unaudited)

Performance Indicator                              FY 2007      FY 2008         FY 2008
                                 FY 2007 Target
                                                   Reported      Target         Reported
Percentage annual increase
in tax revenues collected in
                                      1%            1.70%          3%              2%
the group of municipalities
selected by the program.
Percentage of municipalities
that have implemented the
                                      50%            69%          79%             79%
Integrated Financial
                                       (8)            (9)         (10)            (10)
Management System (SIAF-
Muni) (13 municipalities).
Percentage of municipalities
that have electronic tax roll         75%            75%         100%             92%
systems operational                   (10)           (10)         (13)            (10)
(13 municipalities).
Percentage of municipalities
in which the certification
program for municipal                 0%              0%          33%             67%
financial managers is                 (0)             (0)          (3)             (5)
developed
(9 municipalities).
Signature of corresponding                                      October
                                  October 2007    August 2007                  August 2007
letter or agreement.                                             2007
Percentage of municipalities
that have implemented                 62%           100%          77%             100%
Guatecompras                           (8)           (13)         (10)             (13)
(13 municipalities).
Percentage of municipalities
that have AFIMS operating             77%            77%          93%             85%
effectively                           (10)           (10)         (12)            (11)
(13 municipalities).
Percentage of municipalities
                                      20%           120%          80%             180%
that have internal audit units
                                       (1)           (6)           (4)             (9)
(5 municipalities).
Percentage of municipalities
that register an increase in
                                      29%            54%        71% of 13         69%
tax revenue as a
                                       (2)            (3)          (9)             (8)
percentage of total
revenues (7 municipalities).
Percentage of municipalities
with local economic
                                      57%             0%          86%              0%
development plans
                                       (4)            (0)          (6)             (0)
elaborated
(7 municipalities).
Percentage of municipalities
with at least one critical            56%             0%         100%             33%
basic service improved                 (5)            (0)         (9)              (2)
(9 municipalities).
Percentage of municipalities
that have implemented a               56%             0%          78%             44%
cost recovery system                   (5)            (0)          (7)             (4)
(9 municipalities).



                                                                                          38
                                                                            APPENDIX VIII


Performance Indicator                            FY 2007        FY 2008         FY 2008
                               FY 2007 Target
                                                 Reported        Target         Reported
Percentage of municipalities
with strategic plans                64%             36%           91%              45%
approved                             (7)             (4)          (10)              (5)
(11 municipalities).
Percentage of municipal
                                    50%             50%           75%              50%
associations with strategic
                                     (1)             (1)           (2)              (2)
plans approved.
Number of municipalities
that have developed at least
one new competency as                2               0             0                0
detailed in the national
decentralization policy.
Presentation to the Ministry
of Finance of the proposed
                                  August            Not          August           April
modification to the system
                                   2006         accomplished      2006            2006
of Intergovernmental
transfers system.
Percentage of municipalities
with staff trained regarding
                                    44%             0%            67%             133%
the implementation of the
                                     (4)            (0)            (6)             (12)
National Decentralization
Policy (9 municipalities).
Percentage of municipalities
in which coordination
between national and                33%             0%           100%              0%
municipal public investment          (2)            (0)           (6)              (0)
has been improved
(6 municipalities).
Presentation of the study on
legal framework of              August 2005     Completed        100%             100%
municipal debt.
Presentation of the proposal
regarding the regulation of
                                 June 2006       Completed       100%             100%
municipal indebtedness
practices.
Presentation of the study on
                                 July 2005         100%          100%             100%
the Municipal Tax Code.
Resolution by the
Congressional
                                                    Not        November
Commissions of Municipal       November 2006                                    June 2008
                                                accomplished     2006
Affairs and Public Finances
Affairs.
Approval dates of new
statutes for the National                           Not
                                March 2006                     March 2006       July 2008
Association of                                  accomplished
Municipalities.
Approval dates of new
statutes for the Guatemalan      September          Not        September           Not
Association of Indigenous          2006         accomplished     2006          accomplished
Mayors and Authorities.




                                                                                          39
                                                                           APPENDIX VIII


Performance Indicator                           FY 2007         FY 2008         FY 2008
                             FY 2007 Target
                                                Reported         Target         Reported
Number of Municipalities
with Municipal Development
                                      5                6            7                6
Council Citizen Participation
Commissions operating.
Percentage of municipalities
                                    77%              46%         100%              77%
that present accountability
                                    (10)              (6)         (13)             (10)
reports (13 municipalities).
Percentage of municipalities
in which social auditing            14%               0%          86%              43%
reports are presented                (1)              (0)          (6)              (1)
(7 municipalities).
Percentage of municipalities
in which leadership and
                                    64%               0%          82%               0%
conflict resolution training
                                     (7)              (0)          (9)              (0)
has been delivered
(11 municipalities).
Percentage of municipalities
                                   100%              54%         100%              77%
with COMUDEs conformed
                                    (13)              (7)         (13)              (4)
(13 municipalities).
Percentage of municipalities
that have implemented
                                   100%              33%         100%              50%
innovative media and
                                     (6)              (2)          (6)              (3)
communication mechanisms
(6 municipalities).
Increase in the percentage
of voting among women in
the 2007 elections, in three       100%               N/A        100%             100%
municipalities of the
program.
Number of reconstruction
projects monitored and
                                     37                55    Not applicable   Not applicable
implemented in the selected
municipalities.
Disaster Reconstruction and
                                                   February
Risk Mitigation Plan           March 2007                    February 2007 February 2007
                                                     2007
validated.
Disaster Reconstruction and
                                                      Not                          Not
Risk Mitigation Plan            No target                     March 2007
                                                accomplished                  accomplished
implemented.
Municipal Information
                                July 2007          July 2007   July 2007        July 2007
System developed.
Municipal Information
System institutionalized in   August 2007        August 2007  August 2007      August 2007
reconstruction office.
Note: AFIMS = Integrated Financial Administration; COMUDE = Consejo Municipal de Desarrollo.




                                                                                        40
                                                                APPENDIX IX

Planned and Reported Results for the Anticorruption, Transparency, and
Accountability Program (Unaudited)

        Indicators             FY 2007    FY 2007    FY 2008     FY 2008
                                Target    Reported    Target     Reported
LLR 2.1.1: National
anticorruption/transparency
strategy completed and
implemented.
Existence of a National
Transparency Plan                Yes        Yes        Yes         Yes
(yes/no).
Number of subject areas in
the National Transparency
                                  6         10          6           10
Plan derived from the
IACC.
Percentage of
implementation tasks from
                                 50%        34%        TBD         39%
the Transparency Plan
completed by the GoG.
Percentage of Change in
Annual Index Score of the
                                 N/A        N/A      45.48%        50%
IBT (Index of Budget
Transparency).
Access to Information
Index score in the
Executive Branch (0.0–1.0,       N/A        N/A        0.71       0.70%
where 1.0 represents total
access to information).
LLR 2.1.3: Improved
national government
budget transparency,
management and
execution.
Development of the Budget
Transparency Index               N/A        N/A        Yes         Yes
(yes/no).
Total amount of financial
resources (in quetzals)
procured through the           22,000 M   12,999 M   25,000 M     6,076 M
Guatecompras system.
Number of mechanisms for
external oversight of public
resources used that are
supported by U.S.                 8          8         10           12
Government assistance
(cumulative, “F” List
Indicator).
LLR 2.1.4: Systemic
government deficiencies
identified and addressed in
key line ministries.




                                                                            41
                                                              APPENDIX IX


        Indicators             FY 2007   FY 2007    FY 2008    FY 2008
                                Target   Reported    Target    Reported
Number of U.S.
Government-supported
anticorruption measures
implemented that directly        6          9         10          15
address petty corruption
(cumulative, “F”
List/Disaggregated).
Change in access to
Information Index Score in
the Legislative Branch
                                N/A        N/A       0.39        0.55
(0.0–1.0, where 1.0
represents perfect access
to information).
LLR 2.3.1: Strong civil
society participation and
oversight.
Number of governance
subject areas in which
CSOs, including the media
and private sector, are          11         7         15          16
actively involved with
program support
(cumulative).
Number of people affiliated
with NGOs receiving U.S.
Government-supported
                                1,994     1,979      2,294       3,155
anticorruption training
(cumulative, “F” List
Indicator).
Number of people reached
by U.S. Government-
                                N/A      157,972    150,000    2,226,485
assisted voter education
(“F” List Indicator).
LLR 2.3.2: Clear
leadership role and ethical
standards for the private
sector.
Number of activities carried
out by private firms, which
invest funds on a 1:1
leveraging basis for             5          4         8           7
anticorruption activities
supported by U.S.
Government (cumulative).
Number of private sector
firms that endorse the
                                N/A        N/A        5           4
PTAC electoral
communications campaign.
LLR 2.3.3: Capacity of the
media to report on
transparency and
corruption issues
increased.



                                                                           42
                                                                                      APPENDIX IX


        Indicators                 FY 2007          FY 2007           FY 2008           FY 2008
                                    Target          Reported           Target           Reported
Number of journalists,
media students, and citizen
journalists trained with U.S.          0                74               95                 136
Government support
(cumulative).
Number of articles/media
productions developed as
a result of training
                                     182               100               100               188
activities, including Mi
Periódico articles
(cumulative).
LLR 2.4.1: Political party
and elected leaders
accountability improved.
Number of political parties
that comply with publicly
disclosing their sources of          N/A                14                5                 14
campaign financing during
the electoral period.
Number of elected and
appointed central
government officials that
report publicly about their           30                65               10                 N/A
work plans and results
(number of accountability
reports).
Number of laws or
amendments to ensure
credible elections drafted             1                 1               N/A                N/A
using U.S. Government
assistance (“F” Indicator).
LLR 2.4.2: Improved
government ethics and
disclosure of assets of
public officials and
candidates for public office.
Number of government
officials receiving U.S.
Government-supported
anticorruption training              231               223               500                193
(“F” list
indicator/desegregation,
cumulative).
Note: CSO = civil society organization; IACC = Inter-American Convention Against Corruption; GoG =
Government of Guatemala; LLR = Lower Level Result; NGO = nongovernmental organization




                                                                                                     43
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
